SIGAR                               Special Inspector General for
                                     Afghanistan Reconstruction




                                             SIGAR 14-6 Inspection Report



           Gardez Hospital: After almost 2 Years,
           Construction Not Yet Completed because of
           Poor Contractor Performance, and
           Overpayments to the Contractor Need to Be
           Addressed by USAID




                                                       OCTOBER

                                                      2013
SIGAR 14-6-IP/Gardez Hospital
                                         October 2013


SIGAR
                                         Gardez Hospital: After almost 2 Years, Construction Not Yet Completed
                                         because of Poor Contractor Performance, and Overpayments to the
                                         Contractor Need to Be Addressed by USAID
                                         SIGAR 14-6 Inspection Report
Special Inspector General for
Afghanistan Reconstruction               WHAT SIGAR FOUND
                                         Construction of the new 100-bed hospital in Gardez is currently about 23 months
WHAT SIGAR REVIEWED                      behind its original schedule. In March 2011, the U.S. Agency for International
                                         Development (USAID) Office of Inspector General reported that facilities being
In January 2008, the U.S. Agency for     constructed under the Construction of Health and Education Facilities program—
International Development (USAID)        including Gardez hospital—had fallen significantly behind schedule. During construction,
entered into a $57 million               the International Organization for Migration (IOM)—USAID’s implementing partner for the
cooperative agreement with the           program—granted the construction contractor five extensions through June 30, 2013,
International Organization for           but when a sixth extension to October 31, 2013 was requested, IOM terminated the
Migration (IOM) to implement the         contract for failure to perform. According to USAID, the ability to complete construction
Construction of Health and Education     of the Gardez hospital has been seriously hampered by the facility’s remote location and
Facilities program. The program’s        by an active insurgency. USAID has granted IOM an extension until December 31, 2013,
objective was to help increase           to complete the project. Because the facility was largely incomplete at the time of our
access to healthcare for Afghan          inspection, we could not thoroughly assess the quality of construction.
citizens through the design and
construction of hospitals and mid-       SIGAR also found that IOM did not have sufficient internal controls to detect
wife training centers throughout         overpayments—of at least $507,000—to Sayed Bilal Sadath Construction Company
Afghanistan, including a 100-bed         (SBSCC), which need to be returned to the U.S. government. In one instance, SIGAR
hospital in the town of Gardez,          found that IOM paid the contractor $300,000 for 600 gallons of diesel fuel—a cost of
Paktiya province.                        $500 per gallon. According to IOM officials, the market price in Afghanistan for diesel
                                         fuel should not exceed $5.00 per gallon. As a result, with a proper invoice, the fuel
In May 2010, IOM awarded a               charge should not have exceeded $3,000. In another instance, IOM paid $220,000 for
contract to Sayed Bilal Sadath           an automatic temperature control device that should have cost between $2,000 and
Construction Company (SBSCC), an         $10,000. IOM could not provide us with a vendor invoice for either of these payments.
Afghan company, for $13.5 million to     USAID did not discover the overpayments and reimbursed IOM for these unwarranted
build the new Gardez hospital. The       costs.
contract’s original November 24,
2011, completion date was extended
to June 30, 2013, and its value          WHAT SIGAR RECOMMENDS
increased to $14.6 million. In April     SIGAR recommends that the USAID Mission Director (1) seek reimbursement from IOM
2011, USAID awarded a contract to        of the $507,000 in overpayments for diesel fuel and temperature control devices; and
International Relief and                 (2) conduct a detailed financial audit of the costs associated with construction of
Development, Incorporated (IRD) for      Gardez Hospital to determine whether there are additional overpayments that need to
nearly $97 million—a follow-on to an     be returned to the U.S. government.
existing contract—to provide
independent quality assurance            In commenting on an earlier draft of this report, USAID concurred with the second
services for ongoing and planned         recommendation, and stated that it intends to conduct a financial audit of the costs
design, construction, and                associated with this activity. USAID also stated that, pending the results of this audit, it
maintenance projects, including          would recover any contractor payments, if appropriate, in accordance with SIGAR’s first
Gardez hospital. In an April 2013        recommendation.
audit report on health services in
Afghanistan, SIGAR noted that the                                                                                   Gardez
Afghan government may not be able
to sustain the new Gardez hospital
                                                                                                                    Hospital
once it is completed and that the
new hospital’s annual operation and
maintenance costs could exceed five
times the annual operating costs for
the hospital it will replace.
SIGAR conducted its inspection on
November 25, 2012, and assessed
(1) the extent to which construction
had been completed, and (2)
whether adequate oversight was
being provided to ensure that the
terms of the cooperative agreement
and contract were being met. SIGAR
                                                                                                                    Source:
conducted this inspection from                                                                                      SIGAR,
September 2012 through September                                                                                    November 25,
2013.                                                                                                               2012


  For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
October 23, 2013


Dr. Rajiv Shah
Administrator, U.S. Agency for International Development

Mr. William Hammink
Mission Director for Afghanistan, U.S. Agency for International Development


This report discusses SIGAR’s inspection results of the new 100-bed hospital currently under
construction in the town of Gardez, Paktiya province. This report recommends that the Mission
Director for Afghanistan, U.S. Agency for International Development (USAID) (1) seek
reimbursement of $507,000 in identified contractor overpayments, and (2) conduct a detailed
financial audit to determine whether there are additional contractor overpayments that need to
be returned to the U.S. government.
In commenting on an earlier draft of this report, USAID concurred with the recommendation to
conduct a detailed financial audit to determine whether there are additional contractor
overpayments that need to be returned to the U.S. government. USAID also noted that,
pending the results of this financial audit, it will take action, if appropriate, to recover any
contractor overpayments. We commend USAID for its prompt planned action that will resolve
the recommendations, and we request that USAID provide us a copy of the completed financial
audit report to fully close out the recommendations.
SIGAR conducted this inspection under the authority of Public Law No. 110-181, as amended;
and the Inspector General Act of 1978, as amended; and in accordance with the Quality
Standards for Inspection and Evaluation, published by the Council of the Inspectors General on
Integrity and Efficiency.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS

Background .................................................................................................................................................................. 1

Gardez Hospital Is behind Schedule .......................................................................................................................... 2

Weak Internal Controls Resulted in Overpayments ................................................................................................... 2

Conclusion.................................................................................................................................................................... 3

Recommendations ...................................................................................................................................................... 3

Agency Comments ....................................................................................................................................................... 3

Appendix I - Scope and Methodology ......................................................................................................................... 5

Appendix II - Acknowledgments .................................................................................................................................. 6


PHOTOS

Photo 1 - Gardez Hospital under Construction .......................................................................................................... 2




SIGAR 14-6-IP/Gardez Hospital                                                                                                                                          Page i
ABBREVIATIONS & ACRONYMS

             IOM                International Organization for Migration

             IRD                International Relief and Development, Incorporated

             SBSCC              Sayed Bilal Sadath Construction Company

             USAID              U.S. Agency for International Development




SIGAR 14-6-IP/Gardez Hospital                                                        Page ii
The U.S. Agency for International Development (USAID) funded the construction of Gardez hospital through the
Construction of Health and Education Facilities program. This program was implemented to help address the
healthcare needs of Afghan citizens through the construction of new hospitals in Afghanistan. The program
also was designed to provide training for local health personnel through the construction of three midwife
training centers and up to nine provincial teacher training facilities.
The new 100-bed Gardez hospital is being built to replace an existing 70-bed hospital in the town of Gardez,
Paktiya province. In an April 2013 audit report on health services in Afghanistan, we noted that the Afghan
government may not be able to sustain the new Gardez hospital once it is completed. 1 We also found that the
new hospital’s annual operation and maintenance costs could exceed five times the annual operating costs for
the hospital that it will be replacing. For example, the existing Gardez hospital has annual operating costs,
including generator fuel costs, of about $611,000, and USAID estimated that the annual generator fuel costs
alone for the new hospital could be as much as $3.2 million.
For this inspection, we assessed (1) the extent to which construction had been completed, and (2) whether
adequate oversight was being provided to ensure that the terms of the cooperative agreement and contract
were being met.
We conducted this inspection in Kabul, Afghanistan, and at the Gardez hospital construction site in Paktiya
province from September 2012 through September 2013, in accordance with Quality Standards for Inspection
and Evaluation, published by the Council of the Inspectors General on Integrity and Efficiency. Appendix I
contains a more detailed discussion of our scope and methodology.


BACKGROUND
On January 19, 2008, USAID entered into a 36-month, $57 million cooperative agreement (306-A-00-08-
00512-00) with the International Organization for Migration (IOM) to implement the Construction of Health and
Education Facilities program. 2 On May 25, 2010, IOM awarded Sayed Bilal Sadath Construction Company
(SBSCC) 3 a $13.5 million contract (CHEF10-0002-CN) to construct a new hospital in the town of Gardez, which
was scheduled for completion on November 24, 2011. 4 Through a series of amendments, the contract’s
completion date was extended to June 30, 2013, and its value increased to $14.6 million.
On April 20, 2011, USAID awarded a contract (306-C-00-11-00512-00) to International Relief and
Development, Incorporated (IRD) for nearly $97 million to provide quality assurance services in support of the
USAID Afghanistan’s Office of Infrastructure, Engineering, and Energy for ongoing and planned design,
construction, and maintenance projects. This contract has a base year and 4 option years through April 17,
2016, and includes Gardez hospital in its scope. This is a follow-on contract for IRD; the previous contract
(GS-1OF-0034S; 306-M-00-06-00505-00), worth approximately $58 million, covered the period March 2006
through April 2011.




1 SIGAR Audit 13-9, Health Services in Afghanistan: Two New USAID-Funded Hospitals May Not Be Sustainable and Existing

Hospitals Are Facing Shortages in Some Key Medical Positions, April 29, 2013.
2 Unlike a contract where the principal purpose of the instrument is to acquire property or services for the direct benefit or

use of USAID or another U.S. government entity, a cooperative agreement may be used when the principal purpose of the
relationship is to transfer money, property, services, or anything of value to the recipient in order to carry out a public
purpose of support authorized by federal statute.
3 Sayed Bilal Sadath Construction Company was established in 2000 and registered with the Ministry of Economics of the

Islamic Republic of Afghanistan in 2003. The firm was established to participate in the rehabilitation and development of
Afghanistan through the provision of construction, design, and survey services.
4 In September 2008, IOM awarded a contract to Sadat Mohammad Construction Company for Gardez hospital’s first

phase of construction. The company worked from September 2008 to June 2010, building a boundary wall and deep water
well for the hospital.



SIGAR 14-6-IP/Gardez Hospital                                                                                           Page 1
Gardez hospital, when completed, will consist of a single-
story 100-bed structure made up of separate “wings”                       Photo 1 - Gardez Hospital under Construction
connected by corridors (see photo 1). The wings will
contain, among other things, an administration area,
conference rooms, emergency ward, rehabilitation ward,
pharmacy, and blood laboratory. In addition, the hospital
will have separate wards for male and female surgery. It
will also have parking facilities, a potable water system
with two water towers, a water well, and a wastewater
treatment system. The design documents call for the
hospital’s power to be supplied by two diesel generators—
primary and standby—with the fuel stored in four 16,000
gallon underground tanks.


GARDEZ HOSPITAL IS BEHIND SCHEDULE
The new 100-bed Gardez hospital is currently about 23
months behind its original completion date of November
24, 2011. On March 27, 2011, USAID’s Inspector General        Source: SIGAR photo, November 25, 2012
issued a report, stating that facilities being constructed
under the Construction of Health and Education Facilities program—including Gardez hospital—had fallen
significantly behind schedule. 5
At the time of our November 25, 2012, inspection visit, IOM officials told us the hospital was 66 percent
complete. We observed during our site visit that the building was still a “shell” with a partially completed roof,
and the construction of major items—such as the electrical; heating, ventilation, and cooling; water; and
wastewater treatment systems—had not been completed. Therefore, we were unable to thoroughly assess the
quality of construction at the site.
During the course of construction, the completion date was extended five times, with the fifth extension
establishing a June 30, 2013, completion date. USAID officials in Afghanistan stated that when it became
apparent that SBSCC could not meet this date, the contractor requested a sixth extension to October 31, 2013.
However, IOM officials told us that they rejected this request due to the contractor’s failure to perform and
terminated SBSCC’s contract in July 2013. According to USAID, the ability to complete construction of the Gardez
hospital has been seriously hampered by the hospital’s remote location and an active insurgency. USAID has
granted IOM an extension until December 31, 2013, to complete the project.


WEAK INTERNAL CONTROLS RESULTED IN OVERPAYMENTS
IOM did not establish adequate internal controls for contract payments it made to SBSCC. We found that IOM
overpaid the contractor by at least $507,000 (or about 3.5 percent) of the total contract value. USAID’s
cooperative agreement with IOM specifies that it will be reimbursed for costs incurred in carrying out the
purposes of the grant that are reasonable, allocable, and allowable. In addition, the construction contract
states that the contractor, SBSCC, should submit invoices with its claims for progress payments. We identified
the following overpayments to the contractor:
     •    $300,000 for 600 gallons of diesel fuel, or $500 per gallon, to start up and test the Gardez hospital
          generators. IOM was unable to provide us with a vendor invoice for the fuel. According to IOM officials,
          the market price in Afghanistan for diesel fuel should not exceed $5.00 per gallon. As a result, with a
          proper invoice, the fuel charge should not have exceeded $3,000.
     •    $220,000 for an automatic temperature control device. 6 IOM was unable to provide us with a vendor
          invoice for the device. According to IOM officials, the cost of a temperature control device should


5 USAID Inspector General Audit F-306-11-002-P, Audit of USAID/Afghanistan’s Construction of Health and Education

Facilities Program, March 27, 2011, noted reasons for the delay, including delays in completing designs, security threats,
limited availability of skilled labor, limited availability of quality materials, land title issues, weather, and work interruptions.



SIGAR 14-6-IP/Gardez Hospital                                                                                                 Page 2
         range from $2,000 to $10,000. Using the highest possible cost—$10,000—we determined that IOM
         overpaid the contractor by at least $210,000.
IOM officials did not identify either of these discrepancies when making payments to SBSCC. In addition, USAID
never identified the overpayments and reimbursed IOM for these payments made to SBSCC.


CONCLUSION
Gardez hospital is significantly behind the original schedule for completion. Furthermore, IOM’s weak internal
controls resulted in overpayments to SBSCC—at least $507,000—which need to be recovered and returned to
the U.S. government. The fact that IOM did not discover that the U.S. government paid $500 per gallon for
diesel fuel and could not provide vendor invoices for the fuel and other items clearly shows that its controls
were not sufficient to account for and safeguard U.S. taxpayers’ money. Similarly, USAID never identified these
overpayments when reimbursing IOM for payments it made to the contractor. A complete financial review of
payments IOM made to SBSCC could disclose even more overpayments.


RECOMMENDATIONS
To protect the U.S. government’s investment in the Gardez Hospital, we recommend that the USAID Mission
Director:
1. Seek reimbursement from IOM of the $507,000 in identified contractor overpayments for diesel fuel and
   temperature control devices.

2. Conduct a detailed financial audit of costs associated with construction of Gardez Hospital to determine
   whether there are additional contractor overpayments that need to be returned to the U.S. government.


AGENCY COMMENTS
In commenting on an earlier draft of this report, USAID noted that it is committed to ensuring the accountability
of U.S. government funds. USAID concurred with the recommendation to conduct a detailed financial audit to
determine whether there are additional contractor overpayments that need to be returned to the U.S.
government, stating that it will conduct a financial audit on or around October 2013, with a target completion
date of January 2014. This audit will be part of USAID’s financial audit program that it initiated in October
2010, under the Administrator’s Accountable Assistance for Afghanistan Initiative, to provide stringent
oversight of U.S. government funds expended by USAID implementing partners. As part of this initiative, which
includes limiting subcontractors and increasing financial oversight and audits, USAID plans to audit 100
percent of the local incurred costs of USAID implementing partners. According to USAID, its current financial
and audit controls allow the mission to routinely identify and take action against unallowable or unsupported
costs spent by USAID implementing partners.
With regard to the first recommendation, USAID said that it will modify the scope of the planned financial audit
to include a review of the $507,000 in questioned costs relating to the diesel fuel and the temperature control
devices. USAID will take actions, including seeking reimbursement if appropriate, pending the results of that
audit.
We commend USAID for its prompt planned action that will resolve the recommendations, and we request that
USAID provide us a copy of the completed financial audit report to fully close out the recommendations.
Finally, USAID noted that, in 2011, it revised its guidance for construction contracts such that infrastructure
projects going forward will be implemented under a contract. Previously, it was permissible under USAID



6 Temperature controls are included in heating, ventilating, and air conditioning systems to help ensure that the system

does not overheat or overcool spaces, as variables such as solar loads, occupancy, ambient temperatures, and equipment
and lighting loads change throughout the day.



SIGAR 14-6-IP/Gardez Hospital                                                                                     Page 3
guidance to implement construction under a grant or cooperative agreement, which was the case for the
Gardez Hospital. According to USAID, this change in regulation provides the contracting officers and their
representatives more control over implementing partners that are providing construction services. Further, it
allows for monthly review of financial reporting, instead of quarterly, which is how implementing partners report
under assistance instruments (grants or cooperative agreements). While we applaud the greater degree of
oversight now being given to construction contracts, we note that the use of grants or cooperative agreements
does not necessarily preclude USAID or any other government agency from imposing robust quality assurance
and control requirements on its implementing partners.




SIGAR 14-6-IP/Gardez Hospital                                                                             Page 4
APPENDIX I - SCOPE AND METHODOLOGY
This report provides the results of SIGAR’s inspection of the new Gardez hospital currently under construction.
The hospital is located in the town of Gardez, Paktiya province, Afghanistan.
For this inspection, we assessed (1) the extent to which construction had been completed, and (2) whether
adequate oversight was being provided to ensure that the terms of the cooperative agreement and contract
were being met. To address these objectives, we
    •   reviewed contract documents, design materials, and geotechnical reports to understand project
        requirements and contract administration;
    •   interviewed cognizant U.S. and Afghan officials responsible for the construction project; and
    •   conducted a physical inspection and photographed the project site to observe the current status of
        construction.
We conducted work in Kabul, Afghanistan, and at the Gardez hospital construction site from September 2012
through September 2013. We conducted a site visit on November 25, 2012, and performed our work in
accordance with the Quality Standards for Inspection and Evaluation, published by the Council of the
Inspectors General on Integrity and Efficiency. These standards were established to guide inspection work
performed by Offices of Inspectors General. We did not rely on computer-processed data in conducting this
inspection. However, we did consider the impact of compliance with laws and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. This inspection was conducted under the authority of Public Law No. 110-181, as
amended; and the Inspector General Act of 1978, as amended.




SIGAR 14-6-IP/Gardez Hospital                                                                             Page 5
APPENDIX II - ACKNOWLEDGMENTS
Crawford “Les” Thompson, Senior Inspections Manager
Brian Flynn, Senior Inspections Manager
Milton Naumann, Auditor-in-Charge
Warren Anthony, Senior Auditor
Dinusha Jayasinghe, Senior Auditor
Robert Rivas, Senior Auditor
Lise Pederson, Professional Engineer




SIGAR 14-6-IP/Gardez Hospital                         Page 6
                                This inspection report was conducted
                                  under project code SIGAR-I-005A.




SIGAR 14-6-IP/Gardez Hospital                                          Page 7
                               The mission of the Special Inspector General for Afghanistan
                               Reconstruction (SIGAR) is to enhance oversight of programs for the
           SIGAR’s Mission     reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.




  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
